    Office of Inspector General 


Audit of Management Controls over 

  Accounting for Lost Property 


      OIG Report No. 08-09 


         August 14, 2008 

                                                                                           Audit Report No. 08-09



Executive Summary

The National Archives and Records Administration (NARA) Office of the Inspector
General (OIG) performed an audit of management controls over accounting for lost
property. The objective of the audit was to assess whether management controls were
adequate and provided reasonable assurance that lost inventory was properly documented
and accounted for in NARA records. Specifically, OIG auditors sought to identify
whether NARA adhered to its own policy and procedures in accounting for lost property
and whether management actions taken in response to the identification of lost property
were appropriate in order to protect government assets from loss. This is the first in a
series of reports on management controls within the Facilities and Personal Property
Management Division.

This audit was initiated based on a referral from OIG Investigations surrounding criminal
activity by a NARA employee and contractor who had responsibilities                         III;II,M!
 ursuant to ForA Exemption b(6)---------. In August 2007, a grand jury indicted these
individuals for conspiracy arising from a scheme to embezzle almost $1 million from
July 2002 until September 2006.

Our audit found that:

        1.) Lost property was not properly documented and accounted for in NARA
records. At least 147 reports of survey were submitted to the NARA Facilities and
Personal Property Management Division (NAF) between FY 2002 and FY 2006. Of
these 147 reports, only 3 documented the circumstances surrounding the loss, theft,
damage or destruction of Government property. Weaknesses in management controls
and oversight of the personal property management function increase the risk that
property could be stolen or misused. In addition, without statements or other documents
provided as evidence, the Assistant Archivist for Administration (NA) and NAF officials
responsible for reviewing the reports lacked enough information to determine whether an
investigation was warranted.

        2.) The Assistant Archivist for NA and Director, NAF never once directed an
investigation2 of any of the 2,405 missing equipment items identified on reports of survey
or hold individuals accountable for any ofthe lost property. By not investigating any of
the missing equipment, the Assistant Archivist for NA and NAF officials created a weak
internal control environment. This environment presented an opportunity for theft of
equipment by unscrupulous employees or contractors without fear of being detected or
being held responsible by management officials.

       3.) The fiscal year (FY) 2007 annual inventory identified approximately 559
information technology (IT) equipment items with memory storage capability were

1 An indictment is not a finding of guilt. An individual charged by indictment is presumed innocent unless and until
proven guilty at some later criminal proceedings.
2 According to the NARA Property Managers Users Guide an investigation would include interviewing and obtaining
statements from all individuals whose useful testimony may assist in deciding the cause of, or responsibility for, the
loss, damage, or destruction ofthe property listed on the ROS.



                                 National Archives and Records Administration
                                                                         Audit Report No. 08-09



mIssmg. Although these missing items have the potential to store sensitive information,
to include Personally Identifiable Information (PH), NARA officials did not take action
to determine the use or type of data stored on the equipment and each believed it was not
their responsibility to do so. As a result, the risk presented by the loss ofthese equipment
items has not been assessed and NARA is unaware whether sensitive data has been or is
at risk of disclosure.

        4.) We identified 17 missing capitalized equipment items, with an acquisition
cost of $1.3 million, included in the FY 2007 Property, Plant and Equipment subsidiary
schedule and depreciation schedule. Failure to adjust the property records in a timely
manner could result in an overstatement of fixed assets on future NARA Financial
Statements.

The findings contained in this audit report mirror those identified in Government
Accountability Office (GAO) report 08-727 entitled "Indian Health Service (IHS)
Mismanagement Led to Millions of Dollars in Lost and Stolen Property," June 2008. The
GAO reported that:

      The lost or stolen property and waste we detected at IRS can be attributed
      to the agency's weak internal control environment and its ineffective
      implementation of numerous property policies. IHS management has
      failed to establish a strong "tone at the top" by allowing inadequate
      accountability over property to persist for years and by neglecting to fully
      investigate cases related to lost and stolen items.

The GAO report went on to state that IRS had "historically shown little motivation to
hold its employees liable for missing property. Instead of investigating the circumstances
surrounding missing property, IRS writes off the losses without holding anyone
accountable. "

In 2007, the Assistant Archivist for NA took several actions to address deficiencies in the
property management program. One action taken was to change the definition of
accountable property to increase the minimum value threshold from $1,000 to $3,000 and
reduce the categories of sensitive items to only laptops, digital cameras, and weapons.
This change eliminated controls over approximately 14,000 equipment items but did not
correct the control deficiencies identified in the program. The Assistant Archivist for NA
also directed a complete business process re-engineering (BPR) of the entire property
management function in April 2007. A request for quotation for the BPR was issued one
year later, in April 2008 and the deliverable for the contractor to provide recommended
standard operating procedures is due in November 2008. As of July 29,2008, the
contract has been awarded and initial interviews with property management stakeholders
have begun. Improvements in management controls are needed immediately to ensure
assets are appropriately safeguarded from loss.

This report makes 15 recommendations which, if implemented, will help to strengthen
controls over the personal property management function.




                                                2
                          National Archives and Records Administration
                                                                         Audit Report No. 08-09


                                    INTRODUCTION

BACKGROUND

NARA defines accountable personal property as personal property that is in the interest
of the Government to maintain and assure proper use, maintenance, and protection from
receipt through disposal. Accountable personal property required to be maintained is:
      (a) Capitalized personal property;
      (b) Office furniture and equipment having a unit cost of $3,000 or more;
      (c) Borrowed or leased personal property; and
      (d) Sensitive items (defined as laptops, weapons, and digital cameras).

The NARA-wide personal property management program is managed by the Director,
NAF. Policy governing the personal property management program at NARA is
contained in NARA Directive 201, Chapter 8, "Personal Property Management," and
supplemental guidance is provided in NARA's Property Managers Users Guide.
According to the Property Managers Users Guide, Property Accountable Officers (PAOs)
are responsible for the immediate physical.custody of all personal property under their
control and for providing documentation on all actions affecting the personal property
within their jurisdiction. A Property Management Officer (PMO) is an individual within
NAF responsible for maintaining the personal property management system and
developing, promoting, monitoring, administering, coordinating, and evaluating the
NARA-wide personal property management program.

NARA requires a physical inventory of accountable personal property at all NARA
locations be taken at regular intervals, generally, at least once a year or an equivalent
cycle commensurate with the volume of personal property and the complexity of the
operations of the unit. The P AO must submit a Report of Survey (ROS) to NAF for
items discovered missing during the inventory (within 5 workdays of discovery). In
addition, if an employee detects or suspects a loss of, or observes damage to, Government
property, the employee must report it to the P AO or the supervisor immediately. Every
effort is to be made to locate lost items before initiating a ROS.

NARA uses NA Form 5015 "National Archives Report of Survey" (see Appendix A) to
document the circumstances surrounding the loss, theft, damage, or destruction of
Government property, and serves as a voucher for adjusting the accountable property
records. It also determines the responsibility and establishes the extent of liability for
damage, destruction and deterioration (beyond normal wear and tear); or provides relief
from responsibility, liability, and/or accountability for such property.




                                               3
                          National Archives and Records Administration
                                                                                    Audit Report No. 08-09


OBJECTIVES, SCOPE AND METHODOLOGY

The overall objective of the audit was to assess whether management controls were
adequate and provided reasonable assurance that lost property was properly documented
and accounted for in NARA records.

The audit was conducted at Archives II in College Park, MD, primarily with the Office of
Administration (NA). We also contacted the Office oflnformation Services (NH) and
the General Counsel (NGC).

To determine whether management controls were adequate and provided reasonable
assurance that lost property was properly documented and accounted for in NARA
records we evaluated the policy and procedures in place over the property management
program and the extent to which the policies and procedures were implemented.
Specifically, we (1) reviewed NARA Admin 201, Chapter 8 and the Property Managers
Users Guide, (2) interviewed NARA property management officials and the Assistant
Archivist for Administration (hereafter referred to as Assistant Archivist for NA) to
obtain their view on the property management program, (3) interviewed selected Property
Accountability Officers who had previously reported lost property, and (4) reviewed the
ROSs available for fiscal years 2002 through 2007. We also evaluated actions taken by
management to hold employees accountable for equipment losses by interviewing those
officials responsible for signing the ROSs and reviewing and analyzing the reports
obtained.

                     Table 1. Reports of Survey Available for Review.

                                                 Number of Reports of
                                  Year
                                                   Survey Available
                                  2002                       64
                                  2003                        10
                                  2004                        6
                                  2005                       37
                                  2006                       30
                                  2007                       0*
                                  Total                      147
                            *ROSs had not been completed at the orne of our audit

We evaluated equipment losses and other equipment management problems by reviewing
and analyzing the 147 ROSs available for fiscal years 2002 through 2006. Because ROSs
were not available for FY 2007, we used a spreadsheet of the preliminary results of the
2007 physical inventory, received in March 2008, to identify the approximate number of
items reported as missing3 . In addition, because the ROSs for fiscal years 2004, 2005 and
2006 were not signed by responsible officials, we did not use the amounts reported on

3 At the time of fieldwork, the results of the 2007 inventory were not finalized therefore, we used the
preliminary results available as of March, 2008. The actual amount of lost property may change as a result
of PAO' s recertifying their property listings.

                                                    4
                              National Archives and Records Administration
                                                                        Audit Report No. 08-09


those fonns in our calculation of the amount of equipment removed from property
records, as this equipment had yet to be removed from the property management system
pending signatures.

To detennine whether lost property had an affect on the NARA financial statements we
reviewed the 2007 Property, Plant and Equipment subsidiary schedule and compared the
barcode numbers of the assets listed in the spreadsheet to the list of missing property
identified during the 2007 physical inventory.

This perfonnance audit was conducted in accordance with generally accepted
government auditing standards (GAGAS) between January and July 2008. These
standards require that we plan and perfonn the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




                                              5
                         National Archives and Records Administration
                                                                                 Audit Report No. 08-09


FINDINGS AND RECOMMENDATIONS
Report of Survey Process Not Followed or Enforced
Lost property was not properly documented and accounted for in NARA records. At
least 147 reports of survey were submitted to the NARA Facilities and Personal Property
Management Division (NAF) between FY 2002 and FY 2006. Ofthese 147 reports, only
3 documented the circumstances surrounding the loss, theft, damage or destruction of
Government property. This occurred because the Assistant Archivist for NA and NAF
officials did not follow or enforce the established controls over the ROS process. Office
of Management and Budget (OMB) Circular A-123, Revised, "Management's
Responsibility for Internal Control" requires federal agencies to establish and maintain a
management control system that provides reasonable assurance property and other assets
are safeguarded against waste, loss, unauthorized use, and misappropriation. Without
statements or other documents provided as evidence, the Assistant Archivist for NA and
NAF officials responsible for reviewing the reports lacked enough information to
determine whether an investigation was warranted.

According to the Property Managers Users Guide, a physical inventory of accountable
personal property at all NARA locations must be taken at regular intervals. One purpose
of the physical inventory is to locate or identify missing property. If property is
identified as missing, the Property Accountability Officer (PAO) is responsible for
preparing the ROS and submitting the report to the Property Management Officer in
NAF. According to NARA procedures, the ROS is used to document the circumstances
surrounding the loss, theft, damage, or destruction of Government property, and serves as
a voucher for adjusting the accountable property records. The ROS must be supported by
statements and other documents clearly and concisely answering all questions pertaining
to the incident.

Between fiscal years 2002 and 2006, NARA property accountability officers submitted at
least 147 ROSs to report 2,405 missing equipment items with a combined original
acquisition value of$6 million. We reviewed the 147 ROSs and found 144 reports were
not complete because the forms did not include the circumstances surrounding the loss,
theft, damage or destruction of the Government property.

    Table 2. Lost Property reported on Reports of Survey between FY 2002 and
    FY 2006.
                                                            Acquisition Cost of        Number of
                Reports of Survey      Number of Items
       Year                                                    Lost Property            Complete
                   Submitted           Reported as Lost                                  Reports
                                                                  (rounded)
      2002              64                   1,003                $2,658,000                0
      2003               10                   415                  $831,000                 0
      2004               6                     34                  $260,000                 1
      2005              37                   325*                 $826,000*                 0
      2006              30                   628**              $1,475,000**                2
      Total             147                  2,405                $6,050,000                3
                                                                                ...
    *This amount does not mclude 206 mIssmg IT eqUIpment Items WIth an acqUISItion cost of
     $1.1 million which was not reported on an ROS (please refer to page 8 for further information).
    **This includes some equipment reported in FY 2006 which was also reported in previous years.


                                                  6
                            National Archives and Records Administration
                                                                               Audit Report No. 08-09


In addition, we found that not all of the ROSs had been reviewed by the designated
officials as required. According to NARA procedures, the ROS process includes three
levels of management review as shown in Table 3.

Table 3. Responsibilities in the ROS Process as defined in the NARA Property
Managers Users Guide




Property Management Officer    Property Management Officer      Reviews the report for administrative
                                                                errors, omissions, and completeness and
                                                                returns it to the initiating unit for
                                                                correction if necessary.


Appointing Authority           Director, NAF                    Reviews the report to decide if it
                                                                warrants an investigation by a survey
                                                                officer.


Reviewing Authority            Assistant Archivist for          Reviews the actions taken by the survey
                               Administration                   officer and the appointing authority,
                                                                making certain all requirements have
                                                                been met. Has the authority to: 1)
                                                                provide relief from responsibility; 2)
                                                                require an investigation; 3) determine
                                                                whether the initial investigation was
                                                                complete or more information is
                                                                needed; or 4) approve liability against
                                                                an individual.


Our review of the ROSs revealed that only the reports submitted in FY 2002 and 2003
were reviewed and signed by all three NARA officials. However, in these cases, the
circumstances surrounding the loss were either omitted or defined in generic terms such
as "search conducted but item(s) not found." There was no indication the Director, NAF
or the Assistant Archivist for NA rejected any of the forms or sought additional
information, even though they were incomplete. ROSs provided by NAF officials for FY
2004 and 2006 were not signed by the Director, NAF or the Assistant Archivist for NA,
therefore, we could not determine whether management had reviewed the reports as
required. According to one NAF official, the Assistant Archivist for NA voided the
results of the 2006 inventory before his office had a chance to perform their initial review
the FY 2006 reports. The ROSs for 2005 were signed by two of the three officials but
had not been signed by the Assistant Archivist for NA as the Reviewing Authority.
According to the Assistant Archivist for NA, because of inaccuracies and questionable
data in the property management system she voided the FY 2005 and FY 2006
inventories as invalid instead of signing the forms. Therefore, the management control
created to account for missing property and for management to review the missing
property was not operating as intended.




                                                    7
                              National Archives and Records Administration
                                                                         Audit Report No. 08-09


OMB Circular A-123 requires federal agencies to establish and maintain a management
control system that provides reasonable assurance property and other assets are
safeguarded against waste, loss, unauthorized use, and misappropriation. NARA
Admin 201, Chapter 8 along with the Property Managers Users Guide established
controls to ensure the security of personal property against theft, fraud, waste, abuse, and
damage. However, the Assistant Archivist for NA and NAF officials did not follow or
enforce the existing controls over the ROS process. For example:

a.) NAF officials did not follow or enforce procedures for conducting physical
inventories. NARA procedures require annual inventories to be completed within 10
workdays and allow another 10 workdays to reconcile and adjust the PAO's records to
the property system. We found the annual inventories at NARA did not follow these
procedures as annual inventories were not completed for several months, or in some cases
over a year, while the PMO tried to reconcile the inventory results received from all the
PAOs to determine whether any missing property reported by one P AO was included as
new property on another PAOs inventory. In addition, NARA procedures require
incoming and outgoing P AOs to conduct a joint physical inventory when there is a
transfer of accountability. Several P AOs we interviewed stated a joint inventory was not
conducted when they became PAO. In at least one instance, this led the P AO to refuse to
accept responsibility for 206 missing items with an original acquisition cost of over $1.1
million because according to the PAO, the property was lost prior to their assignment as
PAO. In another example, an ROS was submitted to NAF officials regarding
approximately $600,000 in missing property in a P AO account managed by the former
NAF Property Management Officer. According to the form, the Property Management
Officer retired before the account could be reconciled and although the warehouse at
Archives II was physically inventoried on several occasions, 250 items could not be
located. Because the P AO responsible for the equipment had retired, circumstances
surrounding the loss of the items could not be provided.

b.) The Assistant Archivist for NA and NAF officials did not require P AOs to fill out the
ROSs as described in NARA procedures. As part of the review process, property
management officials had the opportunity to return the form to the P AO to request
additional information, however, evidence did not exist to show that any of the ROSs
were ever returned. As a result, information in block 11 regarding the date and
circumstances surrounding the loss of equipment, including supporting documentation
and statements from parties involved, was not provided. Without this information,
documentation does not exist to suggest that the Assistant Archivist for NA and NAF
officials had enough evidence to conclude that further investigation was not needed or to
relieve employees from liability.

In one example, missing items from an ROS included a microfiche camera terminal with
an acquisition cost of $45,000 and a 3,000 Ib capacity electric forklift with an acquisition
cost of$13,OOO. According to the form, "a second search was conducted and the attached
list indicates 21 items were not located." The Director, NAF and the Assistant Archivist
for NA signed the form without requiring statements or evidence as to what may have
happened to the camera, forklift, or the other 19 missing items, be documented on the
ROS. In an interview, the Assistant Archivist for NA stated she requested additional

                                                8
                          National Archives and Records Administration
                                                                        Audit Report No. 08-09


information about some of the missing equipment items before approving their removal
from the property management system. According to the Assistant Archivist for NA, the
additional information was received verbally from the Director, NAF, therefore, it was
not documented on the form and support could not be provided. The Assistant Archivist
for NA did not furnish any documentary evidence that she had questioned or sought
additional information in 2002 or 2003, prior to supporting the writing off of 1,418
equipment items with an acquisition cost of $3.5 million from the property management
system.
c.) NAF officials did not provide sufficient training to PAOs on their functions as
property custodians. Several management officials stated PAO's were given training at
every opportunity however, during the conduct of the audit the PMO stated training was
not provided to PAO's. We noted that PAOs we interviewed were not familiar with the
NARA procedures for personal property management and stated they had not received
formal training regarding their responsibilities. Instead, PAOs we interviewed received
training on how to create reports in the automated property management system. PAOs
often relied on NAF officials for assistance in completing the ROS form. According to
several PAOs, NAF either directed them to write they were unable to locate the
equipment or the NAF staff filled out the ROS for them. For example, the ROS shown in
Figure 1 below documents a PAO's inability to locate 253 equipment items. According
to the information in Block 11, a second search was performed and the property was still
missing. We found the information recorded on this form was consistent with a majority
of the reports we reviewed and did not provide any information as to the circumstances
surrounding the loss of the equipment.
Figure 1. ROS Approved by the Assistant Archivist for NA in 2003 even though
Circumstances were not included.




 DATE AND




      d          ~~ ~~c/                           A    s~~
            ~        ;-Jc;.Y   L   de-6c/'      ~J ~
            ~~           L~         ~/ /~;; ~
            ~~        F'r1~:J'




                                              9
                         National Archives and Records Administration
                                                                        Audit Report No. 08-09


Interviews with selected P AOs who had previously filled out ROS fonns identified that
efforts to locate the equipment before filling out the ROS were not always thorough. In
particular, one P AO noted that a room was completely filled with excess equipment to
the point where the P AO considered it to be unsafe to try and inventory the equipment.
The lack of thorough inventories and failure by NAF to oversee the inventory process
created a risk environment in which equipment could be removed from the property
management system prematurely.

In addition, we identified a potential loophole within the NARA procedures. Although
the Assistant Archivist for NA believed she had retained the sole responsibility and
authority for detennining whether an individual was relieved from responsibility or
liability for missing property, the ROS process contained in the NARA Property
Managers Users Guide grants the Appointing Authority (the Director, NAF) the ability to
approve the ROS by the authority of the Archivist of the U.S. ifthe Appointing Authority
detennined an investigation was not warranted. In this scenario, the Assistant Archivist
for NA would not have an opportunity to review the ROS or the actions taken by the
Appointing Authority to detennine whether an investigation was needed or whether an
individual should be held financially liable.

In 2007, the Assistant Archivist for NA took several actions to address deficiencies in the
property management program. One action taken was the Assistant Archivist for NA
approved a change to the definition of accountable property increasing the minimum cost
threshold from $1,000 to $3,000 and reducing the definition of sensitive items to include
only laptops, digital cameras, and weapons. This change eliminated controls over
approximately 14,000 equipment items. The Director, NAF believed that by reducing the
amount of property controlled from 18,000 items to 4,000 items, the program would be
more manageable. However, this change did not correct the control deficiencies
identified in the program. Other actions taken by the Assistant Archivist for NA included
new procedures for the loading dock and detailing a Financial Reports official to NAF to
assist in cleaning up the data in the property management system. In addition, the
Assistant Archivist for NA directed a complete business process re-engineering (BPR) of
the entire property management function in April 2007. A request for quotation for the
BPR was issued one year later, in April 2008, and the contract was awarded in June 2008.
The deliverable for the contractor to provide recommended standard operating procedures
is due in November 2008. Improvements in management controls are needed
immediately to ensure assets are safeguarded from loss.

Recommendations:
1. The Archivist ofthe U.S. should direct the Assistant Archivist for Administration to
enforce the requirement that physical inventories be completed within 10 days and
establish a mechanism to monitor PAO's adherence to the physical inventory
requirements.

2. The Archivist should direct the Assistant Archivist for Administration to enforce the
requirement for joint inventories to be completed when there is a transfer of
accountability between P AOs.


                                              10
                         National Archives and Records Administration
                                                                                 Audit Report No. 08-09




3. The Archivist should direct the Assistant Archivist for Administration to develop and
review quarterly a set of management reports from the property management system to
ensure it is updated regularly and that information is complete and accurate.

4. The Archivist should direct the Assistant Archivist for Administration to establish a
specific timefrarne for finalizing Reports of Survey once submitted.

5. The Archivist should direct the Assistant Archivist for Administration to provide
training for all P AOs on their functions as property custodians. At a minimum the
training should include a review ofthe procedures for conducting inventories, the
procedures to remove excess equipment, and the procedures to report missing equipment
items.

6. The Archivist should direct the Assistant Archivist for Administration to revise the
Property Managers Users Guide to remove the ability for the Appointing Authority to
approve the Reports of Survey and require that the Reviewing Authority review and sign
each Report of Survey.

Management Response:

The Acting Assistant Archivist for Administration concurred with the recommendations.

NARA Officials did not Investigate Any Missing Equipment

The Assistant Archivist for NA and Director, NAF never once directed an investigation4
of any of the 2,405 missing equipment items or hold individuals accountable for any of
the lost property reported on the ROSs. This occurred because reviews of the ROSs by
the Assistant Archivist for NA and NAF officials were not adequate and NARA
procedures did not include sufficient guidance as to when an investigation should be
conducted. By not investigating any of the missing equipment, the Assistant Archivist
for NA and NAF officials created a weak internal control environment. This
environment presented an opportunity for theft of equipment by unscrupulous employees
or contractors without fear of being detected or being held responsible by management
officials.

None ofthe 147 ROSs we reviewed from the last five years were investigated by a survey
officer. In 2002 and 2003 (the only years in which the reports were signed by the
Assistant Archivist for NA) the Director, NAF, determined further investigatio"n was not
required for any of the 1,418 missing equipment items identified on the ROSs and the
Assistant Archivist for NA agreed with the Director's decision. This determination
relieved all parties from property accountability and responsibility and allowed property
with a total acquisition cost of $3.5 million to be removed from the property management
system without investigation. Subsequent to 2003, the Assistant Archivist for NA and
NAF officials did not investigate or recommend an investigation for any of the


4   See Appendix A, blocks 16 and 34 of the ROS form.

                                                        11
                                  National Archives and Records Administration
                                                                        Audit Report No. 08-09


$2.5 million in lost property identified on the ROSs even though documentation of the
circumstances surrounding the loss of equipment was, in most cases, not provided. In no
cases was a referral of any kind made to the OIG.

The Assistant Archivist for NA and NAF officials believed that property losses were not
the result of negligence, willful misconduct, or deliberate unauthorized use. They
continue to maintain this position even in light of -------Redacted pursuant to FOIA
Exemption b( 6)--------- following allegations of criminal activity. We identified a flawed
approach in the reviews of the ROSs performed by the Assistant Archivist for NA and the
Director, NAF in making their determination as to whether an investigation was needed.
In particular, the Director, NAF, lacking better guidance, came to the conclusion an
investigation was not needed for any of the reports of lost property based on his "gut
feeling." The Assistant Archivist for NA considered whether the ROS seemed "strange"
in lieu of requiring PAOs to provide evidence or statements from personnel who may
have had knowledge of what happened to the equipment.

Another flaw in the method used to review the ROSs was the Director, NAF, used the
total depreciated value of the missing items as a factor in his continuous recommendation
that investigations were not needed. If the depreciated value of the item was $0, he
considered it to be old and outdated and would not recommend investigating. Although
NARA's accounting policy only depreciates individual equipment items valued at
$50,000 or more, the NARA property management system included a depreciation
schedule and calculated depreciation for each asset. Therefore, missing property that was
fully depreciated in the property management system (which could occur as early as 3
years from the date the item was received) was considered by the Director, NAF to be old
and outdated and therefore, probably unworthy of an investigation regardless of (a) the
original acquisition cost; (b) potential resale value which would increase the equipment's
risk oftheft; or (c) whether the equipment was still needed to support NARA's mission
and would need to be replaced. In a practical sense, equipment meeting this threshold
could be stolen carte-blanche by unscrupulous persons without fear of their being
detected by responsible management officials.

After becoming aware of the alleged criminal activity by a NARA -------Redacted
pursuant to FOIA Exemption b(6)--------- in September 2006, and the loss of over
$1.1 million in IT equipment during FY 2005, the Assistant Archivist for NA questioned
the results of the FY 2005 and FY 2006 inventory and the reliability of the data in the
property management system. However, according to the Assistant Archivist for NA, the
missing equipment reported in FY 2005 and FY 2006 was most likely either transferred
to GSA as excess equipment without documentation or the equipment was stored in a
closet somewhere. The Assistant Archivist for NA stated she did not consider the
missing items to have any value that would present a risk of theft.

In our review, we identified a range of equipment on the ROSs including three x-ray
machines, two forklifts, expensive preservation equipment, and a considerable amount of
IT equipment. While some equipment was more than 10 years old and could have been
outdated, we do not agree that all missing equipment was old and outdated. For example,
we identified a $72,000 server received in October 2005 that could not be located during

                                              12
                         National Archives and Records Administration
                                                                                Audit Report No. 08-09


the annual inventory in October 2006. In another example, 3 desktop computers were
received in March 2005 and reported on a ROS dated May 2005. Therefore, these three
computers were lost less than three months after receipt. These examples highlight
missing equipment that should have been investigated by a survey officer to determine
the cause of or responsibility for the loss of government property.

NARA procedures do not include criteria or a threshold for when an investigation by a
survey officerS would be warranted and the Assistant Archivist for NA stated she never
requested data on trends or analysis of the ROSs. According to the Assistant Archivist
for NA, information regarding lost property could be found in the stack of ROSs she
received from NAF. However, if the Assistant Archivist had requested trends from NAF
such as the total number of laptops lost during the year or how many items were lost in
NARA field sites versus AI or All locations, this information could have been helpful in
detecting weaknesses in internal controls.

By not investigating lost property or holding individuals accountable for lost property,
the Assistant Archivist for NA and NAF officials created a weak control environment
over the property management function. Regardless of the depreciated value of the
equipment or the age ofthe equipment, NARA is required to follow federal policy for
removing equipment no longer in use. In addition, NARA officials have a responsibility
to protect assets from theft, loss, unauthorized use, or unauthorized disposition.

Preliminary results from the 2007 annual physical inventory, obtained in March 2008,
identified that NARA is currently missing approximately 895 equipment items. The
combined original acquisition cost of these 895 items is $7 million. In order to reconcile
the assets on hand to the records in the property management system, P AOs will have to
fill out ROSs to document the loss of these 895 equipment items. Due to the fact items
may have been missing in some cases for over seven years, the potential for any
successful investigative outcome has been severely limited. However, the Assistant
Archivist for NA and NAF officials should review the ROSs prepared and determine
whether an investigation by a survey officer is warranted.

Recommendations:

7. The Archivist should direct the Assistant Archivist for Administration to establish
criteria or a threshold for when an investigation by a survey officer would be required
and document this criterion in the property management procedures.

8. The Archivist should direct the Assistant Archivist for Administration to review the
Reports of Survey for equipment items reported as missing in fiscal years 2007 and 2008
and ensure the Reports of Survey include evidence or statements from personnel with
knowledge of what happened or what may have happened to the equipment on the form.



5The survey officer (under normal circumstances the PMO) conducts an investigation to determine the
cause and value of loss, damage, or destruction of property listed on an ROS, and determines any
assessment of financial liability.

                                                  13
                             National Archives and Records Administration
                                                                                   Audit Report No. 08-09



9. The Archivist should direct the Assistant Archivist for Administration to revise the
property management procedures and require P AOs to submit the Reports of Survey to
the OIG as well as NAF within the time period required by the Property Managers Users
Guide (currently five workdays of discovery of the missing equipment).

10. The Archivist should direct the Assistant Archivist for Administration to provide
trends and analysis on the Report of Survey data that will be useful in detecting
weaknesses in internal controls.

Management Response:

The Acting Assistant Archivist for Administration concurred with the recommendations.

Missing IT Equipment with Memory Storage Capability Presents Risk of Data
Breach

The FY 2007 annual inventory identified 559 IT equipment items with memory storage
capability were missing. Although these missing items have the potential to store
sensitive information, to include Personally Identifiable Information (PH), NARA
officials did not take action to determine the use or type of data stored on the equipment.
This occurred because NARA policy and procedures do not address missing IT
equipment with memory storage capability, and a process was not in place to ensure lost
property did not contain sensitive information. According to Office of Management and
Budget (OMB) Memorandum 07-16, "Safeguarding Against and Responding to the
Breach of Personally Identifiable Information," safeguarding personally identifiable
information in the possession of the government and preventing its breach6 are essential
to ensure the government retains the trust of the American public. As a result, the risk
presented by the loss of these equipment items has not been assessed and NARA is
unaware whether sensitive data has been or is at risk of disclosure.

Depending on the user of the equipment and how the equipment was used at the
individual or office level, missing equipment could have stored a variety of sensitive
information such as PH, contractor proprietary data, credit card information, or classified
data. According to the results of2007 inventory, the 895 missing items fell within 23
different asset types (see Appendix B for the complete list) with a majority of the missing
equipment categorized as IT equipment. As shown in Figure 4, of the 895 missing items
749 items were categorized as IT equipment.




6 According to OMB M-07-16, the term "breach" is used to include the loss of control, compromise,
unauthorized disclosure, unauthorized acquisition, unauthorized access, or any similar term referring to
situations where persons other than authorized users and for an other than authorized purpose have access
or potential access to PH, whether physical or electronic.

                                                   14
                              National Archives and Records Administration
                                                                                  Audit Report No. 08-09


                     Figure 4. Classification of Missing Equipment 

                    Identified during the FY 2007 Physical Inventory 





                                                      IT EQUIPMENT,
                                                         749 (84%)




We identified at least five of the asset types consisted of IT equipment with memory
storage capability and therefore, had the potential to store PII, classified or other sensitive
data (See Table 4 below). Of the total 749 missing IT equipment, 559 items fell within
one of these five asset types. As of March 2008, NARA officials had not taken any
action to determine the use or type of data stored on these 559 missing IT equipment
items.

               Table 4. Missing IT Equipment from the 2007 Inventory
                          with Memory Storage Capability

                                                  Number of           Acquisition Cost
                        Asset Type              Items Missing         of Missing Items

                LAPTOP                                231                      $485,440

                SERVER                                215                    $2,089,936

                WORK STATION                           55                      $415,311
                (i.e. Desktop Computer)

                PRlNTER*                               55                      $272,694

                STORAGE DEVICE                         3                        $62,385

                TOTAL                                 559                    $3,325,766
                                                 ..
                * Certam pnnters have the capabIhty to store data .

NARA Interim Guidance 1603-2 "External Breach Notification," September 20,2007,
created in response to OMB M-07-16, recognizes that lost or stolen equipment such as
laptops, portable data assistants (PDA's), or other electronic storage devices could result
in a breach of personally identifiable information. However, NARA personal property
management procedures do not address special considerations for missing IT equipment"
with memory storage capability and a process was not in place to determine what
information may have been stored on the lost property. For example, the ROS form does

                                                 15
                            National Archives and Records Administration
                                                                         Audit Report No. 08-09


not require the PAO to assess or include the sensitivity of information stored on lost IT
equipment.

None of the NARA officials we interviewed had questioned what type of data may have
resided on the missing equipment and each believed it was not their responsibility to do
so. The Assistant Archivist for NA believed the NARA Chief Information Officer (CIO)
should be responsible for assessing the sensitivity of information that could have been on
missing equipment. However, the CIO believed the P AO and the individual using the
equipment should be responsible. NARA's General Counsel who serves as the Senior
Agency Official for Privacy was not notified of the potential for loss of PH information
and stated that the General Counsel's office should be notified only ifthere is a suspected
breach. His opinion was that it should be the responsibility of the P AO and NAF
officials to determine what information was on the equipment. The different answers
given by three NARA senior officials indicate coordination is needed to establish clear
roles and responsibilities for IT equipment with a potential to store sensitive information.
By not taking action to identify what information could have been on the missing
equipment NARA is unaware whether sensitive data has been or is at risk of disclosure.
Missing IT equipment items involve an additional security risk associated with the
potential for sensitive or classified data that may have been stored on the equipment,
therefore, agency officials need to take timely action to address these risks.

Recommendations

11. The Archivist should direct the Assistant Archivist for Administration to revise
NARA Form 5015 "Report of Survey" to require the inclusion of the sensitivity of
information stored on missing IT equipment with memory storage capability.

12. The Archivist should direct the Assistant Archivist for Administration along with the
Senior Agency Official for Privacy and the Assistant Archivist for Information Services
to develop policy that communicates who has responsibility for determining (a) the
information that was or could have been stored on lost property and (b) the significance
of the lost data.

13. The Archivist should direct the Assistant Archivist for Administration to assess what
information was or could have been stored on the 559 missing IT equipment items and
notify appropriate officials, as described in NARA Interim Guidance 1603-2 "External
Breach Notification," if personally identifiable information is discovered to have been
stored on any of these items.

Management Response:

The Acting Assistant Archivist for Administration concurred with the recommendations.




                                               16
                          National Archives and Records Administration
                                                                         Audit Report No. 08-09


Impact of Missing Equipment on the NARA Financial Statements

The subsidiary schedule for Property, Plant and Equipment is based on records
maintained in the property management system. The FY 2007 subsidiary schedule
included 17 capitalized assets, with an acquisition cost of $1.3 million, that were reported
as missing during the FY 2007 physical inventory. This occurred because the Assistant
Archivist for NA and NAF officials did not follow the ROS process to adjust the records
in the property management system. According to NARA procedures the ROS serves as
the voucher for adjusting the property records. Failure to adjust the property records in a
timely manner could result in an overstatement of fixed assets on future NARA Financial
Statements.

NARA Interim Guidance 400-5 "Capitalization Policy for NARA Assets," March 7,
2005, defines an asset as any general property, plant, and equipment purchases that will
benefit dailyNARA operations. An asset is capitalized ifit (1) has an estimated useful
life of two or more years; (2) is not intended for sale in the ordinary course of operations;
(3) meets the dollar threshold for the asset category (currently the threshold for an
individual item is $50,000) and (4) is acquired or constructed with the intent of being
used or is available for use by NARA. According to a NARA Financial Reports official,
data in the property management system is relied upon by their office to identify
capitalized assets no longer in NARA's possession that would need to be removed from
the schedules supporting the financial statements.

As shown in Table 5, 17 missing capitalized assets were included in the subsidiary
schedule for Account 1750 "Equipment" and 1759 "Accumulated Depreciation­
Equipment" for FY 2007 and in the personal property depreciation schedule. At least 12
of the 17 assets had not been inventoried for over a year with one asset last inventoried in
2001. In addition, six of the missing assets were not fully depreciated at the beginning of
FY 2007..While the inclusion of these 17 assets in the subsidiary schedule did not
materially affect the FY 2007 financial statements, in the future, NARA officials need to
ensure the data relied on to support the financial statements is accurate.

 Table 5. Lost Property Included in the 2007 Fixed Asset General Ledger Account.




                                               17
                          National Archives and Records Administration
                                                                        Audit Report No. 08-09




As discussed earlier in this report, the Assistant Archivist for NA and NAF officials did
not follow the ROS process established in NARA procedures. Because these officials did
not use the ROSs to adjust property records after 2003, items reported as missing by
P AOs during the annual inventories remained in the property system. Therefore, the
information relied upon to compile the property plant and equipment subsidiary schedule
was not an accurate representation of the assets on hand. Until the Assistant Archivist for
NA and NAF officials follow the ROS process and adjust the property records to reflect
property on-hand, NARA is at risk of overstating the fixed asset account supporting
future NARA Financial Statements.

Recommendations:

14. The Archivist should direct the Assistant Archivist for Administration to provide a
copy of all Reports of Survey that include a capitalized asset to the NARA Financial
Reports Division as soon as it is approved.

15. The Archivist should direct the Assistant Archivist for Administration to develop as
part of the management reports from the property management system a report on capital
assets that is reconciled quarterly to the financial statements.

Management Response:

The Acting Assistant Archivist for Administration concurred with the recommendations.




                                              18
                         National Archives and Records Administration
                                                                                                                   Audit Report No. 08-09



Appendix A. NA Form 5015 "National Archives Report of Survey"

                                                                                            1. DATE PREPARED             2. SURVEY NUMBER

        NATIONAL ARCHIVES REPORT OF SURVEY
 3. TYPE OF PROPERTY                                       4. ADDRESS OF PROPERTY ACCOUNTABLE OFFICER



 5. ORIGINATOR




      ·s. NATIONAL STOCK NUMBER                        7. ITEM DESCRIPTION                         B.QTY          9. UNIT PRICE     10. TOTAL COST




 11. DATE AND CIRCUMSTANCES

                                                                 ,




 12.                AFFIDAVIT                      a. SIGNATURE AND DATE
 I do solemnly swear (or affirm) that (to the best
 ofmy knowledge and belief) the articles of pub­
 lic property shown above andlor on attached
 sheets were lost, destroyed, damaged, or worn b. TYPE NAME, TITLE, AND LOCATION
 out in the manner stated, while in the public
 service.
 13. DATE                         114. NAME AND SIGNATURE OF PROPERTY MANAGEMENT OFFICER                              115.   DOCUMENT NUMBER




 16. APPOINTING AUTHORITY
 I have received the evidence pertaining to the lost, damaged, or destroyed property, and have determined that the following action is required.

            0    a. No further investigation is required. There is no positive evidence of negligence. I do not suspect willful misconduct, or
                    deliberate unauthorized use. I hereby forward this document to the approving authority for final action. (Proceed to block 34.)

            0    b. The circumstances surrounding the loss, damage or destruction warrants further investigation. (Proceed to block 20.)

 17. DATE                      11 B. TYPE NAME AND TITLE OF APPOINTING AUTHORITY           19.   SIGNATURE




NATIONAL ARCHIVES AND RECORDS ADMINISTRATION                                                                                      NA FORM 5015 (9 95)




                                                              19
                                         National Archives and Records Administration
                                                                                                                                         Audit Report No. 08-09




                                                                                                                                                            ·. 	
                                                                                                                                                              ~    '   ..
 20. NAME OF SURVEYING OFFICER                                             21. REASON FOR SURVEY (Loss, Damage, etc.)                           22.0ATE



 23. FINDINGS AND RECOMMENDATION


         I have    examined all available evidence as shown in exhibits                              to                    and as indicated below have personally

        investigated the same and it is my belief that the article(s) listed hereon and/or attached to sheets" ~otal cost                   $




                                                                           "
 24.     RECOMMENDED PECUNIARY CHARGE
                                                    r  ACTUAL LOSS                            I b. AMOUNT CHARGED                      Ie. LOSS TO GOVERNMENT
                                                                                                                                                                            ­
 25, DATE                             26a TYPE NAME OF SURVEYING OFFICER                                    I	b. SIGNATURE




 27. 	 I have examined the findings and recommendations of the Surveying Officer on this report of survey                       and the exhibits _ _ _ _ to _ _ _ _

       o
       and
             desire to make a statement which is attached hereto;           0
       preparing the statement and if a pecuniary charge is finally approved,
                                                                                 do not desire to make a statement. I am aware of my right to legal advice in



 28. DATE                             298. NAME OF INDIVIDUAL BEING CHARGED                                 I b. SIGNATURE



 30.   RECOMMENDATION BY              31. COMMENTS
         THE APPOINTING

        o  AUTHORITY
               CONCUR
        o
 32, DATE
               NONCONCUR

                                      33a, TYPE NAME AND TITLE OF APPOINTING AUTHORITY                      I b. SIGNATURE



 34, REVIEWING AUTHORITY
                                                                                                                                                35. PECUNIARY CHARGE

   0         a, REJECTED. Investigation is required, AppOint a survey officer, Date                       Initials                        a. ACTUAL LOSS


   0         b. REJECTED. Investigation incomplete. Additional information required. Date                            Initials             b. AMOUNT CHARGED


   0         c, APPROVED BY AUTHORITY OF THE ARCHIVIST OF THE UNITED STATES.
                                                                                                                                          c. LOSS TO GOVERNMENT


36. DATE                              37.   TVP~ ~Al\.In   IITI   ~   ()E..e9.lI.aA1lbJG AUTHORITY          138. SIGNATURE



NATIONAL ARCHIVES AND RECORDS ADMINISTRATION                                                                                                     NAFORM5015 SACK}(9-95)




                                                                     20
                                                National Archives and Records Administration
                                                                              Audit Report No. 08-09



Appendix B. Missing Property Identified during the 2007 Physical Inventory (as of
March 2008)

               Asset Type                   Number Missing                 Acquisition Cost

  Server                                            215                              $2,089,936

  Router                                            48                                  690,532

  Photographic Equipment                            34                                  496,908

  Laptop                                            231                                 485,440

  Switch                                            33                                  480,495

  Tape Drive                                        51                                  473,176

  Work Station                                      55                                  415,311

  AudioNisual Equipment                             36                                  414,754

  Printer                                           55                                  272,694

  Office Equipment                                  23                                  220,301

  Security Equipment                                 12                                 207,067

  Catalyst                                           16                                 189,194

  Rack                                              31                                  181,427

  Industrial Equipment                               18                                 127,760

  Storage Device                                     3                                    62,385

  Scanner                                            9                                    52,468

  Firewall                                           2                                    40,498

  Laboratory Equipment                               7                                    37,967

  Conservation Equipment                             4                                    21,316

  Communications Equipment                           3                                    13,277

  Fitness Equipment                                  3                                    12,708

  Food Preparation                                   2                                    11,873

  Digital Camera                                     4                                     4,008

  Total                                             895                              $7,001,495



                                                 21
                            National Archives and Records Administration
                                                                                  Appendix C




           National Archives and Records Administration
                                                                              MOl Adelphi Road
                                                             College Park, Maryland 2{JUO~6()(jJ


Date:         August 13,2008

To:           OIG

From;         NA

Suilje«:      Management Response to Audit of Management Controls over Accounting
              For Lost Propt.,'rty. 010 Draft Report No. OS.f.J9


Thank you for the opportunity to review and comment on this draft audit report. We
appreciate the efforts of your staff and aU parties associated with tbe audit process.

We agree that weaknesses exist in personal property management internal controls. We
disagree. however, 'with some of the conclusions drav.ll from the findings. We detail that
disagreement below to help clarify the report and Qur a¢tions, not to invalidate the report, In
fact. we accept alI ofthe specific reco1llJl1eIldations proposed in the report and agree that more
needs to be done.

      L However. contrary to the presentation in the report. the Director of the Facilities and
      Personal Property Management Division (NAF) and I rook multiple actions over the last
      few years to resolve the issues through the following and other efforts:

           .. 	 Recognizing the weaknesses in intemaleont:rols found through the 2005 inventory
                ROSs, NA directed additional efforts and resources to assist NAP in resolving
                some of tile data and control issues. The ftrSt priority waS to place immediate
                controls at the personal property primary point of entry and exit (loading
                dockireceiving area) by implementing revised standard operating procedures
                (SOPs). Further, we undertook an intense effort to clean up the data in the
                property ma."1agcment database by conducting a complete wall-to-wall manual
                invenrory, tracing each property record through its entire life cycle, A member of
                the Fitlfl!1Cial Reports Staff (NAX) staffwas detailed to NAF to assist with this
                major task. Concurrently, the Office ofInformation Services (NH) conducted a
                nationwide IT equipment inventory to be used to assist in reconciling property
                accounts.

           • 	 In 2006, NA directed furtber research and data clean up of the inventory and
               refused to validate it until such research ,vas conducted. The intent of not signing
               the 2006 inventory was not to allow the writ~otl' of discrepancies, but jnstead to
               pursue missing items.




                                    22
               National Archives and Records Administration
                                                                              Appendix C




       .. 	 Recognizins the need to improve control of property, NA directed NAP to conduct
            an internal business process rtL'ttgineering ofproperty management processes and
            systems in 2006l2007, \\Then it became clear that the BPR ,vas too resourCe
            intensive for existing staff - as they were also engaged in the inventory ond data
            clean up efforts, a contract was awarded to a professional aPR company to
            complete the effort in a mOre timely manner.


2. We "''QuId alsO' emphasize that while the control WL'aknesses are real, the impact of any
overstatement in Personal Property can result only in a negligible impact to NARA's
financial Statements because its entin: ,'alue is below three percent ofthe total Property, Plant
and Equipment value. We believe that it is also useful to note that the book value of the
missing items as of March 2007 '>!,'as $41,000. This figure points to the age of the missing
items.

in conclusion. we concur with the fifteen recommendatioa~ in this report and ",ill begin
worldng on an action plan to address them. In addition, we would like to work with the om
on permanently resolving the remaining deficiencies in the property management program.



 ~t!.d~
ADRIENNE C. THOMAS
Acting Assistant Archivist for Administration




                                    23
            National Archives and Records Administration
                                                                                    AppendixC




          National Archives and Records Administration
                                                                                  8601 Adelphi R{}ud
                                                                  College Park, Maryland 20740-60()1


             August 13,2008

To:          OIG

From;        NA

Subj&t:      r..bnagcment Response to Audit ofMallagement Controls over Accounting
             For L(lSt Property. 010 Draft Repmt No. 08·09


Thank YDU for the opportunity to review <lila comme.nt 0D this draft audit report. \Vc
appreciate the efforts OfyoUl st1tI and aU parties associated with the audit process.

\Ve agree that wea.knesses exist in pt:fsDual pwpcrty rIlanag-:mentintcmaJ Ctlntrols" We
disagree, however, with some ufthc conclusions dra\\Tl from the findings, We detail that
disagreement below to help clarify the report and OUf actl{)tlS, not to invalidate the report. in
faet, we accept all of the specific recommendations proposed in the report.wd agree that mOte
needs to be done.

      L However, contrary to the presentation in the report, the Director ()f the Facilities and
      Personal Property Management Division (Nili') and I took 'multiple actions over the last
      fe\v years to Tesolvt: th¢ issues through the following and oilier efforts:

          .. 	 Recognizing the weaknesses in internal controls found through the 2005 inventory
               ROSs, NA directed additional efforts and resources 10 assist NAF in resolving
               some of the data and control issues. The firs. priority waS to place immediate
               controls at the peISOnal property primary point ofentry and exit (loading
               dock/receiving area) by implementi.ng revised standard operating procedures
               (SOPs). Further, we undertook an intense effort to dean up the data in the
               property management database by conducting a complete wall~to-wall manual
               inventory, tracmg each property record through its entire Hie cycle. A member of
               the Financial Reports Staff(NAX) staff was detailed to NAF to asslst with this
               major task. Concurrently. the Office ofInformation Services (NH) conducted Ii
               nationwide IT equipment inventory tl) be used to assist in reconciling property
               accounts.

          • 	 In 2006. NA directed further research and data clean up ofthe inventory and
              refused to validate it until such research was conducted. The intent of not signing
              the 2006 inventory was not to allow the write-off of discrepancies, but instead to
              pursue missing items.




                          NAIU 's web sile Is http://www.archives.go.ll


                                        22
              National Archives and Records Administration
                                                                                  AppendixC




        ,. 	 Recognizing the new to improve eonttol ofproperty, NA dircdoo NAF to conduct
             an internal business process recngineeting of property management processes and
             systems in 20061'2007. \Vnen it became clear iliat the BPR was too resource
             intensive for existing sta.ff ~ as they "rere also engaged in the inventory and data
             clean up efforts, a contract was awarded to a professional BPR company to
             complete the effort in a more timely manner.


2. We would also empbasize that willIe the control \veaknesscs are real, the impact of any
overstatement in Personal Property can fC$Ult only in fl negligible impact to NARA's
Financial Statements because its entire value is below three percent ofthe total Property, Plant
and Equipment value. We believe that it is alsc} useful to note that the book value of the
missing items as.oUvfarch 20(}7 was $41.000. This figure points to the (lge of the missiug
items.

In ('4::mdusI{)tl, \'lft concur '''''ith the fifteen recommendations in t.his H.-port and will begin
working on 3n action plan to address them. In addition, we would like to work with the OIG
on permanently resolving the remaining dd'ic.icncics in the property lUl:magemcllt program.



 ~t!.dLJ
ADRIENNE C, THOMAS
Acting Assistant Archivist for Administration




                               NARA '$ web sUe is http://-w.l1Tchtvta.gov




                                 23
            National Archives and Records Administration
